20-
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Derek Rigsby

(Your Name)

— PETITIONER

VS.

Colorado
— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Please check the appropriate boxes:

 

 

 

x] Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):

 

District Court, Boulder County, Colorado

 

 

 

Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.

 

 

Petitioner’s affidavit or declaration in support of this motion is attached hereto.

 

 

Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:

 

 

The appointment was made under the following provision of law:

 

 

 

 

a copy of the order of appointment is append

 

(Signature)
 

AN

 

 

 

 

District Court, Boulder County, Colorado os
Court Address: 1777 6" Street HW Pi BST
Boulder, CO_80302
THE PEOPLE OF THE STATE OF COLORADO SOCKETED (
Plaintiff JUDGE |
EE

v.
DEREK RIGSBY,
Defendant

o COURT USE ONLY o
Douglas K. Wilson, Colorado State Public Defender Case No. 14CR1706
Nelissa Milfeld
Senior Public Defender Division: 4

Boulder Regional Public Defenders

2555 55" Street, Ste. 200, Boulder, CO 80301

Phone: (303 444-2322 Fax: (303) 449-6432
E-mail: nelissa.milfeld@coloradodefenders.us

 

 

MOTION TO PROCEED IN FORMA PAUPERIS AND
FOR APPOINTMENT OF COUNSEL

 

Defendant-Appellant moves for an Order:

(l) Granting leave, pursuant to C.A.R. 12(b), to proceed on appeal in forma pauperis,
without payment of filing fees or costs;

(2) Appointing counsel to represent Defendant-Appellant in this appeal on the following
grounds:

di, Defendant-Appellant is indigent and without funds with which to pay the filing fees
and costs of an appeal, with which to pay for a transcript of the proceedings and record on appeal,
and with which to employ counsel on appeal.

2. Defendant-Appellant believes this case has meritorious grounds for the review of this
matter in the Colorado Court of Appeals.

te of Servi
Thereby certify that on > 2015, I served
the foregoing document By delivering >¢_ mailing _
faxing _ same toll opposing counsel of ecord.

    

 

Senior Public Defender

Dated: December 11, 2015

000132

 
 

 

 

District Court, Boulder County, Colorado
Court Address: 1777 6" Street
Boulder, CO_80302

THE PEOPLE OF THE STATE OF COLORADO
Plaintiff

ve

DEREK RIGSBY,
Defendant

co COURT USE ONLY o
| Douglas K. Wilson, Colorado State Public Defender Case No. 14CR1706

Nelissa Milfeld
Deputy State Public Defender Division: 4
Boulder Regional Public Defenders

2555 55"St. Ste. 200

Boulder, CO 80201

Phone: (303 444-2322 Fax: (303) 449-6432
E-mail: nelissa.milfeld@coloradodefenders.us

 

—|—
ORDER APPOINTING PUBLIC DEFENDER AND GRANTING FORMA PAUPERIS

 

 

—

THIS MATTER coming on to be heard, and the Court being duly advised in the
premises,

IT IS ORDERED and determined that the Defendant-Appellant herein is indigent and
without funds with which to pay the costs of an appeal, with which to obtain a transcript of the
proceedings in this case, or with which to employ counsel to represent Defendant-Appellant in
the appeal of this case. Application, therefore, is hereby approved and Defendant-Appellant
shall be entitled to prosecute this appeal in forma pauperis, to obtain a record and transcript of
the proceedings in this case without cost, and the Colorado State Public Defender is appointed to
represent Defendant-Appellant in the appeal of this case,

Dated: tary, io
BY THE COURT:

  

000133
